HHS/OIG-Audit--"Audit of Medicare Contractor's Segmented Pension Cost, Blue Shield of California, (A-07-92-00585)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Contractor's Segmented Pension Cost, Blue Shield of
California," (A-07-92-00585)
February 1, 1994
Complete Text of Report is available in PDF format
(1.94 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that California Blue Shield (CBS) overstated
Medicare pension assets by $1.8 million and accumulated $424,403 in unfunded
pension costs that are unallowable for Medicare reimbursement. We recommended
financial adjustments and procedural corrections. The CBS did not agree, but
Regional Health Care Financing Administration officials concurred with our findings
and recommendations.